      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                         Washington, D.C. 20201



January 20, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicare Payments Exceeding Charges for Outpatient Services
               Processed by TrailBlazer Health Enterprises, LLC, in Jurisdiction 4 for the Period
               January 1, 2006, Through June 30, 2009 (A-06-10-00045)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by TrailBlazer Health Enterprises, LLC
(TrailBlazer), in Jurisdiction 4. We will issue this report to TrailBlazer within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Patricia
Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414 or
through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-10-00045.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

January 27, 2012

Report Number: A-06-10-00045

Ms. Melissa Halstead Rhoades
Area Director & Medicare CFO
Financial Management Operations Division
TrailBlazer Health Enterprises, LLC
8330 LBJ Freeway, 11.2402
Dallas, TX 75243

Dear Ms. Rhoades:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by TrailBlazer Health Enterprises, LLC, in Jurisdiction 4 for the
Period January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Michelle Richards, Audit Manager, at (214) 767-9202 or through
email at Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-10-00045 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Melissa Halstead Rhoades


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  REVIEW OF MEDICARE PAYMENTS
EXCEEDING CHARGES FOR OUTPATIENT
SERVICES PROCESSED BY TRAILBLAZER
    HEALTH ENTERPRISES, LLC,
 IN JURISDICTION 4 FOR THE PERIOD
     JANUARY 1, 2006, THROUGH
           JUNE 30, 2009



                         Daniel R. Levinson
                          Inspector General

                           January 2012
                           A-06-10-00045
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of billable
units administered, as defined by the HCPCS code description. In addition, providers should
charge Medicare and other payers, such as private insurance companies, uniformly. However,
Medicare uses an outpatient prospective payment system to pay certain outpatient providers. In
this method of reimbursement, the Medicare payment is not based on the amount that the
provider charges. Consequently, the billed charges (the prices that a provider sets for its
services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.

During our audit period (January 2006 through June 2009), TrailBlazer Health Enterprises, LLC
(TrailBlazer), processed approximately 261 million line items for outpatient services in
Jurisdiction 4, of which 2,824 line items had (1) a Medicare line payment amount that exceeded
the line billed charge amount by at least $1,000 and (2) 3 or more units of service. On claims
from the same providers, we identified an additional 1,124 line items that had (1) a Medicare line
payment amount that exceeded the line billed charge amount by at least $500 and (2) 3 or more
units of service. (A single Medicare claim from a provider typically includes more than one line
item. In this audit, we did not review entire claims; rather, we reviewed specific line items
within the claims that met these criteria. Because the terms “payments” and “charges” generally
are applied to claims, we will use “line payment amounts” and “line billed charges.”) We
reviewed only 3,942 of the 3,948 line items because 2 providers associated with 6 line items had
closed and no longer participated in the Medicare program.

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
TrailBlazer made to providers for outpatient services were correct.




                                                i
SUMMARY OF FINDINGS

Of the 3,942 selected line items for which TrailBlazer made Medicare payments to providers for
outpatient services during our audit period, 373 were correct. Providers refunded overpayments
on 216 line items totaling $1,351,999 before our fieldwork. The remaining 3,353 line items were
incorrect and included overpayments totaling $11,973,119, which the providers had not refunded
by the beginning of our audit.

Of the 3,353 incorrect line items:

   •    Providers reported incorrect number of units of service on 2,731 line items, resulting in
        overpayments totaling $10,283,525.

   •    Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on 275 line items, resulting in overpayments totaling $623,087.

   •    Providers did not provide supporting documentation for 142 line items, resulting in
        overpayments totaling $591,856.

   •    Providers used HCPCS codes that did not reflect the procedures performed on 178 line
        items, resulting in overpayments totaling $390,127.

   •    Providers billed for unallowable services on 24 line items, resulting in overpayments
        totaling $76,850.

   •    Providers incorrectly billed Medicare for three line items for other reasons, resulting in
        overpayments totaling $7,674.

See Appendix A for a summary of findings by Medicare contractor.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
TrailBlazer made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that TrailBlazer:

    •   ensure that the $11,973,119 in identified overpayments has been recovered,

    •   implement system edits that would identify claims with line items having an abnormal
        number of service units,




                                                 ii
    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS

In written comments on our draft report, TrailBlazer concurred with our recommendations and
described corrective actions that it had taken or planned to take. Our draft report included a
recommendation regarding the review and refund of 636 line item overpayments that were
outstanding when the report was issued. For this recommendation, TrailBlazer stated that it had
processed and recovered $2,186,640 for the 636 line items. TrailBlazer’s comments are included
in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the adjustment information that TrailBlazer forwarded to us on the 636 outstanding
line item overpayments and determined that TrailBlazer had processed and recovered
$2,208,942. In addition, we determined that three line items had been adjusted prior to our
review; therefore, we are no longer reporting them as errors. For this report, we have revised our
findings and our first recommendation to reflect the total amount recovered and have removed
the recommendation relating to the 636 line items.




                                                  iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        Chisholm Administrative Services ................................................................................. 2
        TrailBlazer Health Enterprises, LLC .............................................................................. 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology ................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 5
        Incorrect Number of Units of Service ............................................................................. 5
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes ............................... 5
        Unsupported Services ..................................................................................................... 6
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 6
        Services Not Allowable for Medicare Reimbursement .................................................. 6
        Other Errors .................................................................................................................... 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 7

      RECOMMENDATIONS ...................................................................................................... 7

      TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS .....................................8

      OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................................8

APPENDIXES

      A: FINDINGS BY MEDICARE CONTRACTOR

      B: TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. Part B of the Medicare program helps cover medically necessary services such as
doctors’ services, outpatient care, home health services, and other medical services. Part B also
covers some preventive services. The Centers for Medicare & Medicaid Services (CMS)
administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of billable
units administered, as defined by the HCPCS code description. 2 In addition, providers should
charge Medicare and other payers, such as private insurance companies, uniformly. However,
Medicare uses an outpatient prospective payment system to pay certain outpatient providers. In
this method of reimbursement, the Medicare payment is not based on the amount that the
provider charges. Consequently, the billed charges (the prices that a provider sets for its
services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.



                                                          1
Chisholm Administrative Services

Chisholm Administrative Services (Chisholm) was a Medicare fiscal intermediary that served
Medicare providers in Oklahoma. During part of our audit period, Chisholm processed line
items for outpatient services for Oklahoma providers.

TrailBlazer Health Enterprises, LLC

In August 2007, CMS announced that it had awarded to TrailBlazer Health Enterprises, LLC
(TrailBlazer), the MAC contract for the combined administration of Medicare fee-for-service
payments for Jurisdiction 4 in four States: Colorado, New Mexico, Oklahoma, and Texas. 3
TrailBlazer, in its capacity as a fiscal intermediary, previously processed line items for outpatient
services for Medicare providers in three of those States: Colorado, New Mexico, and Texas.
Because TrailBlazer is now also responsible for Oklahoma providers, this report includes the
payments for all four States. During our audit period (January 2006 through June 2009),
approximately 261 million line items for outpatient services were processed in Jurisdiction 4.

We refer to Chisholm and TrailBlazer as TrailBlazer throughout this report.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
TrailBlazer made to providers for outpatient services were correct.

Scope

Of the approximately 261 million line items for outpatient services that TrailBlazer processed
during the period January 2006 through June 2009, 2,824 line items had (1) a Medicare line
payment amount that exceeded the line billed charge amount by at least $1,000 and (2) 3 or more
units of service. On claims from the same providers, we identified an additional 1,124 line items
that had (1) a Medicare line payment amount that exceeded the line billed charge amount by at
least $500 and (2) 3 or more units of service. 4 We reviewed only 3,942 of the 3,948 line items
because 2 providers associated with 6 line items had closed and no longer participated in the
Medicare program.



3
  Prior to the award, providers in those four States processed Medicare outpatient claims through separate, legacy
fiscal intermediaries. In June 2008, TrailBlazer assumed full responsibility as the MAC for Jurisdiction 4 and is
therefore responsible for collecting any overpayments and resolving the issues related to this audit.
4
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these criteria. Because the
terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”



                                                          2
We limited our review of TrailBlazer’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

Our fieldwork included contacting TrailBlazer in Dallas, Texas, and the 220 providers in
Jurisdiction 4 that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify outpatient line items billed by
        providers that had (1) Medicare line payment amounts that exceeded the line billed
        charge amounts by at least $1,000 and (2) 3 or more units of service;

    •   identified additional line items from the same providers that had (1) Medicare line
        payment amounts that exceeded the line billed charge amounts by at least $500 and
        (2) 3 or more units of service;

    •   identified 3,942 line items totaling approximately $15.7 million that Medicare paid to 220
        providers; 5

    •   contacted the 220 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with TrailBlazer; and

    •   discussed the results of our review with TrailBlazer officials on April 20, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


5
  We did not review 216 of the 3,942 selected line items because providers refunded overpayments before our
fieldwork and because payments no longer exceeded charges by at least $500 for those line items.


                                                        3
                          FINDINGS AND RECOMMENDATIONS

Of the 3,942 selected line items for which TrailBlazer made Medicare payments to providers for
outpatient services during our audit period, 373 were correct. Providers refunded overpayments
on 216 line items totaling $1,351,999 before our fieldwork. The remaining 3,353 line items were
incorrect and included overpayments totaling $11,973,119, which the providers had not refunded
by the beginning of our audit.

Of the 3,353 incorrect line items:

   •   Providers reported incorrect number of units of service on 2,731 line items, resulting in
       overpayments totaling $10,283,525.

   •   Providers reported a combination of incorrect units of service claimed and incorrect
       HCPCS codes on 275 line items, resulting in overpayments totaling $623,087.

   •   Providers did not provide supporting documentation for 142 line items, resulting in
       overpayments totaling $591,856.

   •   Providers used HCPCS codes that did not reflect the procedures performed on 178 line
       items, resulting in overpayments totaling $390,127.

   •   Providers billed for unallowable services on 24 line items, resulting in overpayments
       totaling $76,850.

   •   Providers incorrectly billed Medicare for three line items for other reasons, resulting in
       overpayments totaling $7,674.

See Appendix A for a summary of findings by Medicare contractor.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
TrailBlazer made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,


                                                 4
the units are equal to the number of times the procedure/service being reported was performed.” 6
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect number of units of service on 2,731 line items, resulting in
overpayments totaling $10,283,525. The following examples illustrate incorrect units of service:

       •   Seventeen providers billed for an incorrect number of service units on 1,331 line items.
           Rather than billing between 1 and 9 service units (the correct range for the HCPCS code
           associated with these line items), the providers billed between 11 and 480 service units.
           The providers that gave a reason stated that these errors occurred because of a data entry
           error or an incorrect chargemaster. 7 As a result of these errors, TrailBlazer paid the
           providers $3,218,220 when it should have paid $154,348, a total overpayment of
           $3,063,872.

       •   Three providers billed for an incorrect number of service units on 50 line items. Rather
           than billing between 10 and 44 service units (the correct range for the HCPCS code
           associated with these line items), the providers billed between 80 and 748 service units.
           One provider stated that the errors occurred because of an error in converting an
           administered amount to billable units, and another provider stated that its chargemaster
           was incorrect. As a result of these errors, TrailBlazer paid the providers $921,183 when
           it should have paid $38,285, a total overpayment of $882,898.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect number of units of service claimed and incorrect
HCPCS codes on 275 line items, resulting in overpayments totaling $623,087. The following
examples illustrate the combination of incorrect number of units of service claimed and incorrect
HCPCS codes used:

       •   One provider incorrectly billed Medicare for 85 units of service for a drug used for
           chemotherapy treatments. The provider should have billed for four units of service for

6
 Before CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5, of the Manual.
7
    A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers.


                                                           5
       this drug with a different HCPCS code. Similar errors occurred on a total of 32 line items
       submitted by this provider. As a result of these errors, TrailBlazer paid the provider
       $182,409 when it should have paid $945, an overpayment of $181,464.

   •   Another provider incorrectly billed Medicare for 190 units of service for a 6-mg dose of
       an agent used in therapeutic stress testing. The provider should have billed for four units
       of service for a 30-mg dose of an agent used in diagnostic stress testing. Similar errors
       occurred on a total of 25 line items submitted by this provider. As a result of these errors,
       TrailBlazer paid the provider $37,286 when it should have paid $3,266, an overpayment
       of $34,020.

Unsupported Services

Providers billed Medicare for 142 line items for which the providers did not provide supporting
documentation. As a result, TrailBlazer paid the providers $591,856 when it should have paid
$0, an overpayment of $591,856.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed or drugs administered
on 178 line items, resulting in overpayments totaling $390,127.

As an example of incorrect HCPCS codes, for 54 line items, a provider assigned an incorrect
HCPCS code to the magnetic resonance imaging contrast agents given to patients. As a result,
TrailBlazer paid the provider $52,821 when it should have paid $2,256, an overpayment of
$50,565.

Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for 24 line items for which the services provided were not
allowable for Medicare reimbursement, resulting in overpayments totaling $76,850. For
example, providers billed Medicare for 21 line items for the surgical shaping and smoothing of
teeth sockets in preparation for dentures, which is not a covered procedure (Medicare Benefit
Policy Manual, Pub. No. 100-02, chapter 15, section 150). As a result of these errors,
TrailBlazer paid the providers $49,980 when it should have paid $0, an overpayment of $49,980.

Other Errors

Three providers incorrectly billed Medicare for three line items for other reasons. One provider
billed Medicare when it should have billed a private health insurance company first. Per the
Medicare Benefit Policy Manual, Pub. No. 100-02, (chapter 16, section 40.3), Medicare does not
make a payment for services rendered to an individual who is insured under an employer group
health plan until after the individual’s group health plan has paid for its portion of the services.
Another provider billed Medicare directly for a service that was subject to the skilled nursing
facility (SNF) consolidated billing provisions in sections 1862(a)(18) and 1842(b)(6)(E) of the
Social Security Act. The provider should have billed and received payment from the SNF. The



                                                 6
remaining provider did not indicate on the Medicare claim that the drug it had administered to
the patient was supplied to the provider free of charge. Per section 1862(a)(2) of the Social
Security Act, Medicare does not pay for items or services for which the beneficiary has no legal
obligation to pay. As a result of these errors, TrailBlazer paid the providers $7,674 when it
should have paid $0, an overpayment of $7,674.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
TrailBlazer made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect the overpayments. In
effect, CMS relied on providers to notify the Medicare contractors of incorrect payments and on
beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 8

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, the edit did
not detect the errors that we found because it considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that TrailBlazer:

     •   ensure that the $11,973,119 in identified overpayments has been recovered,

     •   implement system edits that would identify claims with line items having an abnormal
         number of service units,

     •   implement system edits that identify line item payments that exceed billed charges by a
         prescribed amount, and

     •   use the results of this audit in its provider education activities.




8
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         7
TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS

In written comments on our draft report, TrailBlazer concurred with our recommendations and
described corrective actions that it had taken or planned to take. Our draft report included a
recommendation regarding the review and refund of 636 line item overpayments that were
outstanding when the report was issued. For this recommendation, TrailBlazer stated that it had
processed and recovered $2,186,640 for the 636 line items. TrailBlazer’s comments are included
in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the adjustment information that TrailBlazer forwarded to us on the 636 outstanding
line item overpayments and determined that TrailBlazer had processed and recovered
$2,208,942. In addition, we determined that three line items had been adjusted prior to our
review; therefore, we are no longer reporting them as errors. For this report, we have revised our
findings and our first recommendation to reflect the total amount recovered and have removed
the recommendation relating to the 636 line items.




                                                8
APPENDIXES
                   APPENDIX A: FINDINGS BY MEDICARE CONTRACTOR

                      Combined Totals       TrailBlazer            Chisholm
                                  Line                  Line                 Line
                    Overpayment         Overpayment           Overpayment
                                 Items                 Items                Items
    Unit errors      $10,283,525  2,731   $9,376,193    2,329     $907,332   402
    Combination
    errors              623,087     275       379,082     158      244,005    117
    Unsupported
    services            591,856     142       494,769     128       97,087     14
            1
    HCPCS
    errors              390,127     178       297,351     115       92,776     63
    Services not
    allowable             76,850      24        74,883      23        1,967     1
    Other errors           7,674       3         7,674       3            0     0
        Total        $11,973,119   3,353   $10,629,952   2,756   $1,343,167   597
1
    HCPCS = Healthcare Common Procedure Coding System.
                                                    Page 1 of 2

APPENDIX B: TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS
Page 2 of 2
